APPENDIX A

-15-

United States v. Franklin, 847 Fed.Appx. 387 (2021)

Procedural Posture(s): Appellate Review; Trial or Guilt
Phase Motion or Objection; Pre-Trial Hearing Motion.

847 Fed.Appx. 387
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of Appeals, Ninth Circuit.

West Headnotes (7)
[1]

Nos. 19-50297, 19-50303
|
Argued and Submitted February
12, 2021 Pasadena, California
|
FILED February 17, 2021

[2]

[2] police officers had probable cause to arrest defendant; and
[3] trial court error, if any, in failing to sever the charge
of using interstate or foreign commerce to entice a minor
to engage in prostitution from charge of sex-trafficking
conspiracy was harmless.
Affirmed.

16

Criminal Law
of accusation

Requisites and sufficiency

The failure of the information charging
defendants with enticing an adult or minor to
travel in interstate and foreign commerce to
engage in prostitution or a sexual activity to
specify the sexual activity involved was not plain
error; the statute referred to causing a person to
engage in prostitution or any sexual activity, and
the only evidence brought before the jury related
solely to prostitution. 18 U.S.C.A. §§ 2422(a),
2422(b).

Holdings: The Court of Appeals held that:
[1] evidence was sufficient to support convictions for using
interstate or foreign commerce to entice a minor to engage in
prostitution;

Requisites and sufficiency

Defendants waived their appellate argument
alleging that the information failed to properly
inform them of the offenses for which they
were charged, during prosecution for using
interstate commerce to entice a minor to engage
in prostitution, and therefore denied them the
opportunity to adequately prepare their defense,
because the charging document failed to specify
the underlying offense, where defendants failed
to file an objection to the information before
trial, and they failed to show good cause for
their failure to object. 18 U.S.C.A. §§ 2422(a),
2422(b); Fed. R. Crim. P. 12(b)(3).

UNITED STATES of America, Plaintiff-Appellee
v.
Conoly FRANKLIN III and Andre Anthony Franklin,
aka Tommy Martin, Defendants- Appellants.

Synopsis
Background: Defendants, a father and son pair, were
convicted in the United States District Court for the Southern
District of California, William Q. Hayes, J., with defendant
attempting to entice an adult to travel in interstate and foreign
commerce to engage in prostitution or a sexual activity for
which a person can be charged with a criminal offense
and using interstate commerce to entice a minor to engage
in prostitution, and son being convicted of using interstate
commerce to entice a minor to engage in prostitution.

Criminal Law
of accusation

[3]

Human Trafficking and
Slavery
Instructions
Jury instructions on attempting to entice an adult
to travel in interstate and foreign commerce
to engage in prostitution or a sexual activity
were not required to identify the alleged sexual
activity, where the evidence presented at trial
only addressed prostitution as the underlying
conduct. 18 U.S.C.A. §§ 2422(a), 2422(b).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Franklin, 847 Fed.Appx. 387 (2021)

[4]

Infants
pandering

Promoting, pimping, and
[7]

Evidence was sufficient to support convictions
for using interstate or foreign commerce to entice
a minor to engage in prostitution; defendants
drove from Nevada to California to pick up
three females whom they had recruited to
work as prostitutes, defendants had used social
media, text messages, and phone calls to recruits
the females, and when defendants arrived in
California they were arrested as the females
they recruited were all personas created by
undercover detectives. 18 U.S.C.A. § 2422(b).

[5]

Failure to instruct in

District Court's failure to instruct the jury on
entrapment was not plain error, in prosecution
for using interstate or foreign commerce to
entice a minor to engage in prostitution; even
though the online profile defendant responded
to was created by an undercover police officer,
defendant made the initial suggestion that officer
and her younger sister engage in prostitution,
defendant admitted that he had previously
pimped out women, and co-defendant introduced
the idea of prostitution to third woman, who
was also an undercover officer, and proceeded to
try and meet her despite learning that she was
allegedly 16 years old.

Arrest
Personal knowledge or observation
in general
Arrest
Appearance, acts, and statements of
persons arrested
Police officers had probable cause to arrest
defendant for using interstate commerce to entice
a minor to engage in prostitution; defendant and
his father were in contact with three women
through social media, text message and phone
calls, defendants recruited the women to engage
in prostitution and traveled to California to pick
up the women, the women defendants went to
pick up were actually undercover police officers,
and defendants were arrested after traveling from
Nevada to California. 18 U.S.C.A. § 2422(b).

[6]

Criminal Law
general

Attorneys and Law Firms
*388 David Chu, ASUSAT, W. Mark Conover, I, Esquire,
Assistant U.S. Attorney, Katherine McGrath, Assistant U.S.
Attorney, Daniel Earl Zipp, Assistant U.S. Attorney, Office of
the US Attorney, San Diego, CA, for Plaintiff - Appellee
Anthony E. Colombo, Jr., Esquire, Attorney, Law Offices of
Anthony E. Colombo Jr., San Diego, CA, for Defendant Appellant Andre Anthony Franklin
David James Zugman, Attorney, Burcham & Zugman, San
Diego, CA, for Defendant - Appellant Conoly Freddie
Franklin III

Criminal Law
Joinder or severance of
counts or codefendants
Trial court error, if any, in failing to sever the
charge of using interstate or foreign commerce
to entice a minor to engage in prostitution from
charge of sex-trafficking conspiracy, on the basis
that the evidence of enticing a minor to engage
in prostitution was stronger, thereby tainting
the jury as to the sex-trafficking conspiracy,
was harmless, where defendant was convicted
of the stronger case, using interstate or foreign
commerce to entice a minor to engage in
prostitution, and not the weaker case, conspiracy

Appeal from the United States District Court for the
Southern District of California, William Hayes, District
Judge, Presiding, D.C. Nos. 3:18-cr-04187-WQH-2, 3:18cr-04187-WQH-1

to engage in sex-trafficking.
1591, 2422(b).

Appellants Conoly Franklin and Andre Franklin, father and
son, appeal from their conviction for attempted enticement

Before: BOGGS, * M. SMITH, and MURGUIA, Circuit
Judges

*389 MEMORANDUM **

18 U.S.C.A. §§

17

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Franklin, 847 Fed.Appx. 387 (2021)

for prostitution, in violation of 18 U.S.C. § 2422. We have
jurisdiction pursuant to 28 U.S.C. § 1291, and we affirm the
district court.
The Franklins lived in Reno, Nevada. On August 30, 2018,
they drove together from Reno to San Diego, California to
pick up three females (one adult, two minors) whom they
had recruited over the previous week to work as prostitutes.
Conoly used Facebook, texts, and phone calls to recruit
Ash Lee, a 26-year-old in San Diego, as well as her 16year-old sister. Andre used texts and phone calls to recruit
Jamie, a 16-year-old in Napa, California. It turned out that
all three women were not real, but were personas created by
undercover detectives from two different task forces. When
the Franklins arrived in San Diego, they were arrested and
placed in a police car where a recording device had been
placed in the back seat prior to the stop. Andre consented to
search of his phone, which revealed that they were planning
to go from San Diego to Napa to pick up “Jamie.”
The Franklins, after waiving indictment, were charged in a
four-count information. Count I charged the Franklins with a
sex-trafficking conspiracy, in violation of

18 USC § 1591,

1594. 1 Count II charged Conoly with attempting to entice an
adult to travel in interstate and foreign commerce to engage
in “prostitution or a sexual activity for which a person can
be charged with a criminal offense” in violation of 18 U.S.C.
§ 2422(a). Counts III and IV charged Conoly and Andre
respectively with using interstate or foreign commerce to
entice a minor (under the age of 18) to engage in prostitution,
in violation of 18 U.S.C. § 2422(b). Conoly was found guilty
on Counts II and III, and Andre was found guilty on Count IV.
[1] On appeal, the Franklins argue that the information failed
to properly inform them of the offenses for which they
were charged and therefore denied them the opportunity to
adequately prepare their defense. Section 2422(a) and (b)
prohibit coercion and enticement of (a) an adult or (b) a minor
to engage in “prostitution or any sexual activity for which
any person can be charged with a criminal offense.” The
Franklins argue that the language “to engage in ... any sexual
activity for which any person can be charged with *390 a
criminal offense” requires that the charging document specify
the underlying offense.
The Franklins raise this claim for the first time on appeal. A
claim brought for the first time on appeal is reviewed for plain
error.

Cir. 2019) (per curiam). However, Federal Rule of Criminal
Procedure 12(b)(3) requires that an objection to a defective
information be made before trial. Fed. R. Crim. P. 12(b)
(3). No such objection was made, so the claim is waived. 2
Guerrero, 921 F.3d at 898.
[2] Even if it were not waived, the Franklins’ claim ignores
the language of 18 U.S.C. § 2422, which refers in both of its
subsections to causing a person (adult or minor) “to engage
in prostitution or any sexual activity for which any person
can be charged with a criminal offense.” § 2422(a) and (b)
(emphasis added). The only evidence brought before the jury
related solely to “prostitution.” Under the plain language of
the statute, neither subsection requires that “prostitution” be
in violation of a specific criminal statute. See United States v.
LeCoe, 936 F.2d 398, 402–03 (9th Cir. 1991). The evidence
in the record is overwhelming that the Franklins enticed three
women to engage in prostitution. The attack on the alleged
deficiency or ambiguity relating to the remainder of the statute
is irrelevant.
[3] The Franklins argue that the jury instructions also failed
to identify the sexual activity for which they could be charged
with a criminal offense. This argument fails for the reasons
set forth above. Further, the jury instructions for Count II and
IV list only “prostitution” as the underlying conduct. This
language follows this circuit's model jury instructions for both
§ 2422(a) and (b), which simply list “prostitution” without
any need to specify a criminal statute. Ninth Circuit Manual
of Model Criminal Jury Instructions § 8.192 and § 8.192A.
[4] The Franklins’ alternative arguments also fail. They
make two evidentiary claims, insufficient evidence to support
the conviction under Counts III and IV, and exclusion of
evidence obtained after Andre's arrest. We review de novo
whether sufficient evidence existed to support the conviction.
United States v. Rashkovski, 301 F.3d 1133, 1136 (9th Cir.
2002). Evidence is sufficient “if, viewing the evidence in the
light most favorable to the prosecution, any rational trier of
fact could have found the essential elements of the crime
beyond a reasonable doubt.”
Ibid. To convict a defendant
for attempt under § 2422 (b), the government must prove that
he knowingly (1) attempted (2) to persuade, induce, entice,
or coerce (3) a minor (4) to engage in prostitution.
United
States v. Goetzke, 494 F.3d 1231, 1234–35 (9th Cir. 2007).
The record taken as a whole and viewed in the light most

United States v. Guerrero, 921 F.3d 895, 897 (9th

18

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Franklin, 847 Fed.Appx. 387 (2021)

he was not otherwise predisposed to commit the crime.”

favorable to the government is more than sufficient for a
rational juror to find the Franklins guilty of Counts III and IV.
[5] Andre argues that he was arrested without probable cause
and therefore statements made after his arrest should be
suppressed. In determining whether probable cause for the
underlying arrest existed, the question is “whether, under the
totality of the circumstances, a prudent officer would have
believed that there was a fair probability that [the defendant]
committed a crime.”
United States v. Collins, 427 F.3d
688, 691 (9th Cir. 2005). The totality of the circumstances,
including evidence from social media, texts, phone calls,
*391 conversations, and the trip to California with his
father, supports the district court's holding that probable cause
existed to arrest Andre.
[6] Andre also argues that Count I and Count IV should have
been severed because the evidence of enticing prostitution
under Count IV was stronger than evidence of conspiracy
under Count I, thereby tainting the jury as to Count I. The
jury found Andre guilty of the stronger case (Count IV) and
not the weaker case (Count I), so any alleged prejudice was
harmless error.
[7] Finally, the Franklins argue that the district court should
have given an entrapment instruction to the jury. This claim
is reviewed for plain error since the Franklins failed to
make such a request to the district court.
United States
v. Freeman, 6 F.3d 586, 600 (9th Cir. 1993). To establish
entrapment, a defendant must show “(1) that he was induced
to commit the crime by a government agent; and (2) that

Ibid. An inducement consists of an opportunity and,
for example, “persuasion, fraudulent representations, threats,
coercive tactics, harassment, promises of reward, or pleas
based on need, sympathy or friendship.”
Cortes, 757 F.3d 850, 858 (9th Cir. 2014).

United States v.

Conoly claims entrapment because the government unfairly
created an online profile of Ash Lee “an impossible person:
a beautiful blonde in her mid-twenties new to the game”
and ready to prostitute herself for him. [Reply brief at 1-2.]
Conoly argues that “[f]alling for the inducement of having a
beautiful young woman come devote herself to him preys too
much on human weakness to be considered fair play.” [Id. at
29-30] But Conoly made the initial suggestion of prostitution
to both “Ash Lee” and “her minor sister.” Conoly also
admitted that he had previously pimped other women.
Likewise, the record shows that Andre introduced the idea of
prostitution to “Jamie” to entice her and proceeded despite
learning that she was only 16 years old. The Franklins were
not entrapped. And evidence of the Franklins’ predisposition
is manifest. The district court did not commit plain error in
denying an entrapment jury instruction.
The district court is AFFIRMED.
All Citations
847 Fed.Appx. 387

Footnotes
*
**
1
2

The Honorable Danny J. Boggs, United States Circuit Judge for the U.S. Court of Appeals for the Sixth Circuit,
sitting by designation.
This disposition is not appropriate for publication and is not precedent except as provided by Ninth Circuit
Rule 36-3.
The jury found both men not guilty of conspiracy.
The Franklins do not show good cause for their failure to object to the information in the district court. See
Fed. R. Crim. P. 12(b)(3);

End of Document

Guerrero, 921 F.3d at 898.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

19

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

APPENDIX B

-20-

Case 3:18-cr-04187-WQH Document 102 Filed 09/13/19 PageID.812 Page 1 of 6

ED

AO 245B (CASD Rev. 1/19) Judgment in a Criminal Case

UNITED STATES DISTRICT Co

SEP 1 3 2019

SOUTHERN DISTRICT OF CALIFORNIA
UNITED STATES OF AMERICA

V.
CONOLY FREDDIE FRANKLIN III (1)
Case Number:

3:18-CR-04187-WQH

Ryan T. Mardock, CJA
Defendant's Attorney

USM Number

72022-298

• THE DEFENDANT:

D
~

pleaded guilty to count(s)
was found guilty on count(s)

Two (2) and Three (3) of the Information

after a plea of not guilty.
Accordingly, the defendant is adjudged guilty of such count(s), which involve the following offense(s):

Title and Section / Nature of Offense
l 8:2422(a); l 8:2428(b), 1594(d) - Attempted Enticement of an Adult; Criminal Forfeiture
l 8:2422(b ); l 8:2428(b), 1594(d) - Attempted Enticement of a Minor; Criminal Forfeiture
·The defendant is sentenced as provided in pages 2 through
The sentence is imposed pursuant to the Sentencing Reform Act of 1984.

6

~

The defendant has been found not guilty on count(s)

D

Count(s)

~

Assessment : $200.00 imposed ($100 as to each count).

~

NTA Assessment•: $5,000 waived.
The Court finds the defendant indigent
*Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.

Count
2
3

of this judgment.

One (I) of the Information
is

dismissed on the motion of the United States.

~

~ Forfeiture pursuant to order filed
No fine
9/10/2019
, included herein.
IT IS ORDERED that the defendant must notify the United States Attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United States Attorney of
any material change in the defendant's economic circumstances.

21

Case 3:18-cr-04187-WQH Document 102 Filed 09/13/19 PageID.813 Page 2 of 6
AO 245B (CASD Rev. 1/19) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

CONOLY FREDDIE FRANKLIN III (I)
3:18-CR-04187-WQH

Judgment - Page 2 of 6

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of:
One Hundred Twenty (120) months as to each count 2 and 3. Terms to run concurrently.

•
~

Sentence imposed pursuant to Title 8 USC Section 1326(b).
The court makes the following recommendations to the Bureau of Prisons:
1. Designated to a facility in the Western Region, as close to Arizona as possible.

•

The defendant is remanded to the custody of the United States Marshal.

•

The defendant must surrender to the United States Marshal for this district:

•

•

at _ _ _ _ _ _ _ _ _ A.M.

•

as notified by the United States Marshal.

on _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

The defendant must surrender for service of sentence at the institution designated by the Bureau of
Prisons:

•
•

as notified by the United States Marshal.

•

as notified by the Probation or Pretrial Services Office.

on or before

RETURN
I have executed this judgment as follows:
Defendant delivered on

_ _ _ _ _ _ _ _ _ _ _ _ _ to _ _ _ _ _ _ _ _ _ _ _ _ _ __

at _ _ _ _ _ _ _ _ _ _ _ _ , with a certified copy of this judgment.

UNITED STATES MARSHAL

By

DEPUTY UNITED STATES MARSHAL

3:18-CR-04187-WQH

22

Case 3:18-cr-04187-WQH Document 102 Filed 09/13/19 PageID.814 Page 3 of 6
AO 245B (CASO Rev. 1/19) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

CONOLY FREDDIE FRANKLIN III (I)
3:18-CR-04187-WQH

Judgment - Page 3 of 6

SUPERVISED RELEASE
Upon release from imprisonment, the defendant will be on supervised release for a term of:
Ten (10) years as to each count 2 and 3. Terms to run concurrently.

MANDATORY CONDITIONS
I. The defendant must not commit another federal, state or local crime.
2. The defendant must not nnlawfully possess a controlled substance.
3. The defendant must not illegally possess a controlled substance. The defendant must refrain from any unlawful use of a
controlled substance. The defendant must submit to one drug test within 15 days of release from imprisonment and at least
two periodic drug tests thereafter as determined by the court. Testing requirements will not exceed submission of more
than 4 drug tests per month during the term of supervision, unless otherwise ordered by the court.
The above drug testing condition is suspended, based on the court's determination that the defendant poses a low
risk of future substance abuse. (check if applicable)
4.
The defendant must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing
a sentence of restitution. (check if applicable)
5. 1:81The defendant must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
6. 1:81The defendant must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. §
20901, et seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in
the location where the defendant resides, works, is a student, or was convicted of a qualifying offense. (check if
applicable)
7.
The defendant must participate in an approved program for domestic violence. (check if applicable)

•

•

•

The defendant must comply with the standard conditions that have been adopted by this court as well as with any other
conditions on the attached page.

23

3:18-CR-04187-WQH

Case 3:18-cr-04187-WQH Document 102 Filed 09/13/19 PageID.815 Page 4 of 6
AO 245B (CASD Rev. 1/19) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

CONOLY FREDDIE FRANKLIN III (I)
3:18-CR-04187-WQH

Judgment - Page 4 of 6

STANDARD CONDITIONS OF SUPERVISION
As part of the defendant's supervised release, the defendant must comply with the following standard conditions of
supervision. These conditions are imposed because they establish the basic expectations for the defendant's behavior
while on supervision and identify the minimum tools needed by probation officers to keep informed, report to the
court about, and bring about improvements in the defendant's conduct and condition.
I. The defendant must report to the probation office in the federal judicial district where they are authorized to reside within 72
hours of their release from imprisonment, unless the probation officer instructs the defendant to report to a different probation
office or within a different time frame.
2. After initially reporting to the probation office, the defendant will receive instructions from the court or the probation officer
about how and when the defendant must report to the probation officer, and the defendant must report to the probation officer
as instructed.
3. The defendant must not knowingly leave the federal judicial district where the defendant is authorized to reside without first
getting permission from the court or the probation officer.
4. The defendant must answer truthfully the questions asked by their probation officer.
5. The defendant must live at a place approved by the probation officer. If the defendant plans to change where they live or
anything about their living arrangements (such as the people living with the defendant), the defendant must notify the
probation officer at least IO days before the change. If notifying the probation officer in advance is not possible due to
unanticipated circumstances, the defendant must notify the probation officer within 72 hours of becoming aware of a change or
expected change.
6. The defendant must allow the probation officer to visit them at any time at their home or elsewhere, and the defendant must
permit the probation officer to take any items prohibited by the conditions of their supervision that he or she observes in plain

view.
7. The defendant must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer
excuses the defendant from doing so. If the defendant does not have full-time employment the defendant must try to find fulltime employment, unless the probation officer excuses the defendant from doing so. If the defendant plans to change where the
defendant works or anything about their work (such as their position or their job responsibilities), the defendant must notify the
probation officer at least 10 days before the change. If notifying the probation officer at least 10 days in advance is not possible
due to unanticipated circumstances, the defendant must notify the probation officer within 72 hours of becoming aware of a
change or expected change.
8. The defendant must not communicate or interact with someone they know is engaged in criminal activity. If the defendant
knows someone has been convicted of a felony, they must not knowingly communicate or interact with that person without
first getting the permission of the probation officer.
9. If the defendant is arrested or questioned by a law enforcement officer, the defendant must notify the probation officer within 72 hours.

10. The defendant must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e.,
anything that was designed, or was modified for; the specific purpose of causing bodily injury or death to another person such
as nunchakus or tasers).
11. The defendant must not act or make any agreement with a law enforcement agency to act as a confidential human source or
informant without first getting the permission of the court.
12. If the probation officer determines the defendant poses a risk to another person (including an organization), the probation
officer may require the defendant to notify the person about the risk and the defendant must comply with that instruction.
The probation officer may contact the person and confrrm that the defendant notified the person about the risk.
13. The defendant must follow the instructions of the probation officer related to the conditions of supervision.

24

3:18-CR-04187-WQH

Case 3:18-cr-04187-WQH Document 102 Filed 09/13/19 PageID.816 Page 5 of 6
AO 245B (CASO Rev. 1/19) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

CONOLY FREDDIE FRANKLIN III (1)
3:18-CR-04187-WQH

Judgment - Page 5 of 6

SPECIAL CONDITIONS OF SUPERVISION

1. Submit your person, property, residence, abode, vehicle, papers, computer, social media accounts, any

other electronic communications or data storage devices or media, and effects to search at any time, with
or without a warrant, by any law enforcement or probation officer with reasonable suspicion concerning
a violation of a condition of probation/supervised release or unlawful conduct, and otherwise in the lawful
discharge of the officer's duties. 18 U.S.C. §§ 3563 (b)(23); 3583 (d)(3). Failure to submit to a search may
be grounds for revocation; you must warn any other residents that the premises may be subject to searches
pursuant to this condition.
2. Not use or possess any computer, computer-related devices (pursuant to 18 U.S.C. § 1030(e)(l)), which
can communicate data via modem, dedicated connections or cellular networks, and their peripheral
equipment, without prior approval by the court or probation officer, all of which are subject to search and
seizure. The offender must consent to installation of monitoring software and/or hardware on any
computer or computer-related devices owned or controlled by the offender that will enable the probation
officer to monitor all computer use and cellular data. The offender must pay for the cost of installation of
the computer software. This condition only covers computers, or computer-related devices which could
be used to facilitate communication with minors.
3. Consent to third party disclosure to any employer, potential employer, concerning any restrictions that are
imposed by the court.
4. Not knowingly associate with, or have any contact with any known sex offenders unless in an approved
treatment and/or counseling setting.
5. Not initiate any contact (personal, electronic or otherwise) or associate with anyone under the age of 18,
unless in the presence of a supervising adult who is aware of the offender's deviant sexual behavior and
nature of offense and conviction, with the exception of the offender's biological children, unless approved
in advance by the probation officer.
6. Not accept or commence employment or volunteer activity without prior approval of the probation officer,
and employment should be subject to continuous review and assessment by the probation officer.
7. Not loiter within 200 yards of a school, schoolyard, playground, park, amusement center/park, public
swimming pool, arcade, daycare center, carnival, recreation venue, library and other places primarily
frequented by persons under the age of 18, without prior approval of the probation officer.

25

3:18-CR-04187-WQH

Case 3:18-cr-04187-WQH Document 102 Filed 09/13/19 PageID.817 Page 6 of 6
AO 245B (CASO Rev. 1/19) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

CONOLY FREDDIE FRANKLIN III (I)
3:18-CR-04187-WQH

Judgment - Page 6 of 6

8. Complete a sex offender evaluation, which may include periodic psychological, physiological testing
(limited to polygraph), and completion of a visual reaction time (VRT) assessment, at the direction of the
court or probation officer. If deemed necessary by the treatment provider, the offender must participate
and successfully complete an approved state-certified sex offender treatment program, including
compliance with treatment requirements of the program. The Court authorizes the release of the
presentence report, and available psychological evaluations to the treatment provider, as approved by the
probation officer. The offender will allow reciprocal release of information between the probation officer
and the treatment provider. The offender may also be required to contribute to the costs of services
rendered in an amount to be determined by the probation officer, based on ability to pay. Polygraph
examinations may be used following completion of the formal treatment program as directed by the
probation officer in order to monitor adherence to the goals and objectives of treatment and as a part of
the containment model.
9. Not knowingly associate with prostitutes or pimps and/or loiter in areas frequented by those engaged in
prostitution. Must not associate with any person who you know, or who a probation officer or other law
enforcement officer informs you is a prostitute or pimp and/or loiter in areas frequented by those engaged
in prostitution, unless given permission by the probation officer.
10. Reside in a residence approved in advance by the probation officer, and any changes in residence must be
pre-approved by the probation officer.
11. Report all vehicles owned or operated, or in which you have an interest, to the probation officer.
12. Provide complete disclosure of personal and business financial records to the probation officer as
requested.
13. Participate in a cognitive behavioral treatment program as directed by the probation officer, and if deemed
necessary by the probation officer. Such program may include group sessions led by a counselor, or
participation in a program administered by the probation office. May be required to contribute to the costs
of services rendered in an amount to be determined by the probation officer, based on ability to pay.

II

26

3:18-CR-04187-WQH

Case 3:18-cr-04187-WQH Document 103 Filed 09/13/19 PageID.818 Page 1 of 6

FILED

AO 245B (CASD Rev. 1/19) Judgment in a Criminal Case

SEP 13 2019

UNITED STATES DISTRICT CO
SOUTHERN DISTRICT OF CALIFORNIA
UNITED STATES OF AMERICA

JUDGMENT IN A C

CLERK US DISTRICTCOl:10·1
SOUTHERN DISTRICT OF CA:.:c .W,\J/A
BY
,.,, · TY

(For Offenses Committed On or After November l, 1987)

V.
ANDRE ANTHONY FRANKLIN (2)
aka Tommy Martin

Case Number:

3:18-CR-04187-WQH

Anthony Edward Colombo, Jr, CJA
Defendant's Attorney

72023-298

USM Number

• THE DEFENDANT:
D pleaded guilty to count(s)

1Zi was found guilty on count(s)

Four (4) of the Information

after a plea ofnot gnilty.
Accordingly, the defendant is adjudged guilty of such count(s), which involve the following offense(s):

Title and Section / Nature of Offense
18:2422(b); 18:2428(b), 1594(d) - Attempted Enticement of a Minor; Criminal Forfeiture

The defendant is sentenced as provided in pages 2 through
The sentence is imposed pursuant to the Sentencing Reform Act of 1984.

IZI The defendant has been found not guilty on count(s)

6

Count
4

of this judgment.

One (1) of the Information

D

Count(s) _ _ _ _ _ _ _ _ _ _ _ _ _ _ is

IZI

Assessment: $100.00 imposed.

IZI

NTA Assessment*: $5,000 waived.
The Court finds the defendant indigent
*Jnstice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.

IZI

No fine

dismissed on the motion of the United States.

IZI Forfeiture pursuant to order filed

9/12/2019

, included herein.

IT IS ORDERED that the defendant must notify the United States Attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United States Attorney of
any material change in the defendant's economic circumstances.

HON.

~LU-UVJ

Q.

YES

UNITED STATES DISTRICT mDGE

27

Case 3:18-cr-04187-WQH Document 103 Filed 09/13/19 PageID.819 Page 2 of 6
AO 245B (CASD Rev. 1/19) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

ANDRE ANTHONY FRANKLIN (2)
3:18-CR-04187-WQH

Judgment - Page 2 of 6

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of:
One Hundred Twenty (120) months as to count 4.

•
~

•
•

•

Sentence imposed pursuant to Title 8 USC Section 1326(b).
The court makes the following recommendations to the Bureau of Prisons:
1. Designated to a facility in the Western Region.

The defendant is remanded to the custody of the United States Marshal.
The defendant must surrender to the United States Marshal for this district:

•

at _ _ _ _ _ _ _ _ AM.

•

as notified by the United States Marshal.

on

-------------------

The defendant must surrender for service of sentence at the institution designated by the Bureau of
Prisons:

•
•

as notified by the United States Marshal.

•

as notified by the Probation or Pretrial Services Office.

on or before

RETURN
I have executed this judgment as follows:
to _ _ _ _ _ _ _ _ _ _ _ _ _ __

Defendant delivered on

at _ _ _ _ _ _ _ _ _ _ _ _ , with a certified copy of this judgment.

UNITED STATES MARSHAL

By

DEPUTY UNITED STATES MARSHAL

3:18-CR-04187-WQH

28

Case 3:18-cr-04187-WQH Document 103 Filed 09/13/19 PageID.820 Page 3 of 6
AO 245B (CASD Rev. 1/19) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

ANDRE ANTHONY FRANKLIN (2)
3:18-CR-04187-WQH

Judgment - Page 3 of 6

SUPERVISED RELEASE
Upon release from imprisonment, the defendant will be on supervised release for a term of:
Ten (10) years.

MANDATORY CONDITIONS
1. The defendant must not commit another federal, state or local crime.
2. The defendant must not unlawfully possess a controlled substance.
3. The defendant must not illegally possess a controlled substance. The defendant must refrain from any unlawful use of a
controlled substance. The defendant must submit to one drug test within 15 days ofrelease from imprisonment and at least
two periodic drug tests thereafter as determined by the court. Testing requirements will not exceed submission of more
than 4 drug tests per month during the term of supervision, unless otherwise ordered by the court.
D The above drug testing condition is suspended, based on the court's determination that the defendant poses a low
risk of future substance abuse. (check if applicable)
4.

• The defendant must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing

a sentence of restitution. (check if applicable)
5.

t:8:IThe defendant must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

6.

t:8:IThe defendant must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. §
20901, et seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in
the location where the defendant resides, works, is a student, or was convicted of a qualifying offense. (check if
applicable)

7.

• The defendant must participate in an approved program for domestic violence. (check if applicable)

The defendant must comply with the standard conditions that have been adopted by this court as well as with any other
conditions on the attached page.

29

3:18-CR-04187-WQH

•

Case 3:18-cr-04187-WQH Document 103 Filed 09/13/19 PageID.821 Page 4 of 6
AO 245B (CASD Rev. 1/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

ANDRE ANTHONY FRANKLIN (2)
3: 18-CR-04187-WQH

Judgment - Page 4 of 6

STANDARD CONDITIONS OF SUPERVISION
As part of the defendant's supervised release, the defendant must comply with the following standard conditions of
supervision. These conditions are imposed because they establish the basic expectations for the defendant's behavior
while on supervision and identify the minimum tools needed by probation officers to keep informed, report to the
court about, and bring about improvements in the defendant's conduct and condition.
I. The defendant must report to the probation office in the federal judicial district where they are authorized to reside within 72
hours of their release from imprisomnent, unless the probation officer instructs the defendant to report to a different probation
office or within a different time frame.
2. After initially reporting to the probation office, the defendant will receive instructions from the court or the probation officer

about how and when the defendant must report to the probation officer, and the defendant must report to the probation officer
as instructed.
3. The defendant must not knowingly leave the federal judicial district where the defendant is authorized to reside without first
getting permission from the court or the probation officer.

4. The defendant must answer truthfully the questions asked by their probation officer.

5. The defendant must live at a place approved by the probation officer. If the defendant plans to change where they live or
anything about their living arrangements (such as the people living with the defendant), the defendant must notify the
probation officer at least IO days before the change. If notifying the probation officer in advance is not possible due to
unanticipated circumstances, the defendant must notify the probation officer within 72 hours of becoming aware of a change or
expected change.
6. The defendant must allow the probation officer to visit them at any time at their home or elsewhere, and the defendant must
permit the probation officer to take any items prohibited by the conditions of their supervision that he or she observes in plain
view.
7. The defendant must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer
excuses the defendant from doing so. If the defendant does not have full-time employment the defendant must try to find fulltime employment, unless the probation officer excuses the defendant from doing so. If the defendant plans to change where the
defendant works or anything about their work (such as their position or their job responsibilities), the defendant must notify the
probation officer at least IO days before the change. If notifying the probation officer at least 10 days in advance is not possible
due to unanticipated circumstances, the defendant must notify the probation officer within 72 hours of becoming aware of a
change or expected change.
8. The defendant must not communicate or interact with someone they know is engaged in criminal activity. If the defendant
knows someone has been convicted of a felony, they must not knowingly communicate or interact with that person without
first getting the permission of the probation officer.

9. If the defendant is arrested or questioned by a law enforcement officer, the defendant must notify the probation officer within 72 hours.
10. The defendant must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e.,
anything that was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such
as nunchakus or lasers).
11. The defendant must not act or make any agreement with a law enforcement agency to act as a confidential human source or
informant without first getting the permission of the court.
12. If the probation officer determines the defendant poses a risk to another person (including an organization), the probation
officer may require the defendant to notify the person about the risk and the defendant must comply with that instruction.
The probation officer may contact the person and confirm that the defendant notified the person about the risk.
13. The defendant must follow the instructions of the probation officer related to the conditions of supervision.

30

3:18-CR-04187-WQH

,.

Case 3:18-cr-04187-WQH Document 103 Filed 09/13/19 PageID.822 Page 5 of 6
AO 245B (CASO Rev. 1/19) Judgment in a Criminal Case
DEFENDANT:
CASE NUMBER:

ANDRE ANTHONY FRANKLIN (2)
3:18-CR-04187-WQH

Judgment - Page 5 of 6

SPECIAL CONDITIONS OF SUPERVISION

I. Report all vehicles owned or operated, or in which you have an interest, to the probation officer.
2. Resolve all outstanding warrants within 60 days.
3. Submit your person, property, residence, abode, vehicle, papers, computer, social media accounts, any
other electronic communications or data storage devices or media, and effects to search at any time, with
or without a warrant, by any law enforcement or probation officer with reasonable suspicion concerning
a violation of a condition of probation/supervised release or unlawful conduct, and otherwise in the lawful
discharge of the officer's duties. 18 U.S.C. §§ 3563 (b)(23); 3583 (d)(3). Failure to submit to a search may
be grounds for revocation; you must warn any other residents that the premises may be subject to searches
pursuant to this condition.
4. Not use or possess any computer, computer-related devices (pursuant to 18 U.S.C. § 1030(e)(l)), which
can communicate data via modem, dedicated connections or cellular networks, and their peripheral
equipment, without prior approval by the court or probation officer, all of which are subject to search
and seizure. The offender must consent to installation of monitoring software and/or hardware on any
computer or computer-related devices owned or controlled by the offender that will enable the probation
officer to monitor all computer use and cellular data. The offender must pay for the cost of installation
of the computer software. This condition only covers computers, or computer-related devices which
could be used to facilitate communication with minors.
5. Consent to third party disclosure to any employer, potential employer, concerning any restrictions that
are imposed by the court.
6. Not knowingly associate with, or have any contact with any known sex offenders unless in an approved
treatment and/or counseling setting.
7. Not initiate any contact (personal, electronic or otherwise) or associate with anyone under the age of 18,
unless in the presence of a supervising adult who is aware of the offender's deviant sexual behavior and
nature of offense and conviction, with the exception of the offender's biological children, unless
approved in advance by the probation officer.

31

3:18-CR-04187-WQH

Case 3:18-cr-04187-WQH Document 103 Filed 09/13/19 PageID.823 Page 6 of 6
AO 245B (CASO Rev. 1/19) Judgment in a Criminal Case
DEFENDANT:

ANDRE ANTHONY FRANKLIN (2)

CASE NUMBER:

3:18-CR-04187-WQH

Judgment - Page 6 of 6

8. Complete a sex offender evaluation, which may include periodic psychological, physiological testing
(limited to polygraph), and completion of a visual reaction time (VRT) assessment, at the direction of
the court or probation officer. If deemed necessary by the treatment provider, the offender must
participate and successfully complete an approved state-certified sex offender treatment program,
including compliance with treatment requirements of the program. The Court authorizes the release of
the presentence report, and available psychological evaluations to the treatment provider, as approved by
the probation officer. The offender will allow reciprocal release of information between the probation
officer and the treatment provider. The offender may also be required to contribute to the costs of
services rendered in an amount to be determined by the probation officer, based on ability to pay.
Polygraph examinations may be used following completion of the formal treatment program as directed
by the probation officer in order to monitor adherence to the goals and objectives of treatment and as a
part of the containment model.
9. Not accept or commence employment or volunteer activity without prior approval of the probation
officer, and employment should be subject to continuous review and assessment by the probation
officer.
I 0. Not loiter within 200 yards of a school, schoolyard, playground, park, amusement center/park, public
swimming pool, arcade, daycare center, carnival, recreation venue, library and other places primarily
frequented by persons under the age of 18, without prior approval of the probation officer.
11. Reside in a residence approved in advance by the probation officer, and any changes in residence must
be pre-approved by the probation officer.
12. Provide complete disclosure of personal and business financial records to the probation officer as
requested.
13. Not knowingly associate with prostitutes or pimps and/or loiter in areas frequented by those engaged in
prostitution. Must not associate with any person who you know, or who a probation officer or other law
enforcement officer informs you is a prostitute or pimp and/or loiter in areas frequented by those
engaged in prostitution, unless given permission by the probation officer.

II

32

3:18-CR-04187-WQH

APPENDIX C

-33-

Case: 19-50297, 05/04/2021, ID: 12101026, DktEntry: 44, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAY 4 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,

Nos. 19-50297, 19-50303

Plaintiff-Appellee,
v.
ANDRE ANTHONY FRANKLIN, AKA
Tommy Martin, and CONOLY FREDDIE
FRANKLIN III

D.C. Nos.
3:18-cr-04187-WQH-2
3:18-cr-04187-WQH-1
Southern District of California,
San Diego
ORDER

Defendants-Appellants.
Before: BOGGS,* M. SMITH, and MURGUIA, Circuit Judges.
The panel votes to deny the petition for panel rehearing. Judges M. Smith
and Murguia vote to deny the petition for rehearing en banc, and Judge Boggs so
recommends. The full court has been advised of the petition for rehearing en banc,
and no judge of the court has requested a vote. Fed. R. App. P. 35. Accordingly,
the petition for panel rehearing and rehearing en banc is DENIED.

*

The Honorable Danny J. Boggs, United States Circuit Judge for the
U.S. Court of Appeals for the Sixth Circuit, sitting by designation.

34

